     Department       of Health and Human Services
             OFFICE OF

        INSPECTOR GENERA                                .





.

    OVERSIGHT OF STATE CH LD WELFARE

               PROGRAMS





                   +<’       “’?


                  ~v               JUNE GIBBS BROWN
                  G                 Inspector General
                  :
                   ‘b    ~
                    %%.,>               JUNE 1994
                                      OEI-01-92-00770
               EXECUTIVE                        SUMMARY

PURPOSE

Toassess   andtofind   ways to improve oversight of State child welfare programs.

BACKGROUND

In 1980, Congress passed The Adoption Assistance and Child Welfare Act

(P.L. 96-272) in order to “lessen the emphasis on foster care placements and to

encourage greater efforts to find permanent homes for children.” The law signaled a

new direction in child welfare and highlighted an awakened Federal interest in how

States manage their child welfare programs.


The Department of Health and Human Services (HHS) funds State child welfare

services through three significant mechanisms, all of which are under the Social

Security Act. The largest proportion of monies comes from Title IV-E, with lesser

amounts from Title XX and Title IV-B (see appendix A for details on the programs).

The HHS’S Administration for Children and Families (ACF) oversees State child

welfare services using the following formal mechanisms: Title IV-E reviews, Section

427 reviews, program reviews, and State plans (see appendix B for details on oversight

mechanisms). The content of both Title IV-E and Section 427 reviews is determined

by P.L. 96-272.


Members of Congress, HHS officials, the General Accounting Office, directors of

State child welfare agencies, and representatives of the Child Welfare League of

America and the American Public Welfare Association are among those who have

voiced concerns about these processes. In particular, they have been concerned that

the reviews elevate process issues over quality of services.


On August 10, 1993, the President signed into law the Omnibus Budget Reconciliation

Act of 1993. This law increased funding for Title IV-B to encourage State efforts to

support and preserve families. The original version of the bill proposed major

alterations to the oversight process. While the law, as passed, left most of the

oversight processes unchanged, the fact that Congress considered reshaping these

requirements indicates a high level of interest and concern about oversight issues.


Given this level of interest and activity, changes to the oversight system are likely.

This report presents information which we hope will be helpful to decision makers as

they consider improvements to oversight of child welfare programs. In this report, we

evaluate the scope of and approach to Federal oversight activities (which includes the

statutorily mandated features of oversight), as well as the conduct of these activities.


This report is focused on a range of Federal oversight activities, including technical

assistance, planning, and review of programs. The focus is primarily on ACF oversight



                                            i
activities, although HHS leadership and Congress have significant roles in determining
these activities. Audits and reviews conducted by agencies other than ACF, such as
the Office of Audit Services in the OIG or the General Accounting Office (GAO),
were not within the scope of this study. Furthermore, we did not reevaluate specific
findings or disallowances from any reviews of State child welfare programs. We intend
this report to establish the context and provide general perspective for officials to
make improvements in the oversight system. Our Office of Audit Services has issued
a draft report which focuses on specific improvements in the eligibility process.

Finally, because ACF itself has expressed concerns about the oversight processes and
has initiated several examinations of them, we are certain ACF is familiar with many
of the shortcomings we identi~ in this report. Our focus is not primarily on assessing
how good a job ACF is doing in conducting oversight, but on assisting ACF in its
deliberations on improving the processes.

We collected data from three primary sources. First, we reviewed the results of the
most recent Section 427 reviews, Title IV-E reviews, and program reviews conducted
in each State in the last five years. Second, we interviewed State child welfare officials
in 13 States. Finally, we interviewed officials in each of the 10 ACF regional offices
and had numerous discussions with officials in the central office of ACF.

ACCOMPLISHMENTS

Federal overnight of State child welfare prograrm has served some tiportant purposes,
pam”cular$ in establkhing new directions for chiki welfare ik the early 1980s.

Since the early 1980s, Federal oversight of State child welfare programs has been
focused on assuring States’ adherence to P.L. 96-272. Several State and Federal
officials we intemiewed spoke about the positive new directions in State programs
resulting from P.L. 96-272 and Federal reviews focused on the law. In addition,
oversight has helped prevent States from illegally receiving Federal funds for ineligible
activities or on behalf of ineligible families. There is little question that the oversight
mechanisms in use since the early 1980s have served important purposes.

SHORTCOMINGS

Despite the accomplishments stated above, there are indications that the oversight
mechanisms and framework make it difficult for the Federal government to provide
adequate stewardship of Federal funds or leadership to States for the 1990s and
beyond. Evidence of these indications follows. There are shortcomings both in the
overall approach to oversight as well as in the individual processes. Many of the
shortcomings stem directly from the requirements set out by Federal statute, while
others are matters of administrative discretion not strictly determined by statute.




                                             ii
The overall approach to Federal overnight has not addressed many of the vzlal irsues
States face in administetig child we~are program.

  �	   Federal oversight has not recently prompted States to improve and address new
       and complex problems in child welfare.

  �	   Federal oversight reviews have not identified severe problems with several
       States’ child welfare programs that were specified unsuccessful lawsuits against
       the States.

  �	   Section 427 and Title IV-E reviews have been focused onthewritten        record of
       case work, not on how well children are served.

  �	   Disallowances have often been based on issues that child welfare agencies do
       not control.

  �	   The ACF has movided limited technical assistance to States; State officials say
       that ACF does’ not provide them with new information when it identifies       “
       program strengths and weaknesses and solutions to problems.

I+obIems with the conduct of Federal review and phmning actiw”hmhave hampered their
eficienq and q$ectiventxr.

  �	   Federal review activities have been resource intensive for State agencies and
       ACF regional offices.

  .	   Review reports have not been issued to States in a timely manner.      This has
       diminished their capacity to improve child welfare programs.

  �	   States expressed confusion about the Federal review procedures resulting from
       poor communication by Federal officials.

  .	   There has been inadequate   Federal/State   interaction on child welfare oversight
       issues.

  �	   Officials from ACF and States question whether Federal review and planning
       mechanisms have been adequately meeting their stated objectives.

RECOMMENDATIONS

Oversight of State child welfare programs continues to be of intense interest to the
Congress, HHS, the States, and others. The ACF, itself, is engaged in efforts to
improve its oversight. We hope this report can provide information to help guide
decisions on the course of oversight. It is important for ACF to pursue two principles
in its oversight of State child welfare programs. The ACF must continue to assure the
integrity of States’ use of Federal funds. It is equally necessary for ACF to work in

                                           ...
                                           111
 partnership with States tomakeprograms   work well. Our recommendations             are
 focused at helping ACF and the States pursue both these principles.

 We present a wide range of options for each recommendation.        Some options are not
 consistent with others, while other options fit together very well. Our goal is to
 provide as many practical ideas as possible.

In many cases, the current oversight approaches and processes are set by Federal
statute. Some of the options we present, if implemented, may therefore require
legislative changes (these are denoted by a 6). Other options could be enacted at the
discretion of ACF without Congressional approval.

In order to tiprove    its ovecrzght of State child we~are programs, the ACF shoti

Provide States with more and better feedback on issues related to program
performance.

Implementation      options

 c Performance Indicators Develop performance indicators, collect State-by-State
   information on them, and disseminate this information to all States on a periodic
   basis.

 �	   Outcome-Based Reviews J Replace existing review mechanisms with new review
      processes that relate resources to outcomes.

Find new ways to work with States to make program improvements and address
problems.

Implementation     options

�	    Corrective Action PlansJ Rather than automatically sanctioning States financially
      in response to adverse review findings, use, when appropriate (i.e., at the discretion
      of the Secretary), the results of reviews to develop corrective action plans, with
      agreed-upon time frames, to improve programs and enforce legal requirements.
      Waive or reduce disallowances, when appropriate (at the discretion of the
      Secretary), if States comply with plans and time frames.

�	    AccreditationJ Using new or existing accreditation bodies, make accreditation of
      programs a Title IV-B State plan requirement. Oversee the accreditation bodies to
      assure that they are fair, reasonable, and pursuing continuous improvement.




      ‘May require new legislation.


                                              iv
          .    Qualitv Assurance Require States to have quality assurance programs that look at
               the quality of case work.

     Improve current planning and review processes to make them more effective.

    Implementation          options

      �	      Title IV-B Plannin~ Emphasis Put less emphasis on compliance reviews (such as
              the Section 427 reviews) to assure protections are in place in States and, instead,
              use a revitalized joint planning pro~ess to provide strategic direction that will lead
              States to effective child welfare programs.

     �	       Substantive Title IV-E ReviewsJ Use the Title IV-E review process to assure
              States are substantially complying with foster care case planning and review and
              judicial determination requirements. Limit disallowances to instances of substantial
              non-compliance.

     �	       Section 427 Incentivesd Alter the Section 427 review process to provide better
              incentives for improvement. Rather than using full compliance with process
              requirements as the standard for 427 funding, score States based on quality of case
              planning and reviews once they have passed a triennial review and make the size
              of the grants in the coming three years dependent on the scores.

 �	           Focus Program Reviews Change the approach of program reviews to use them
              only when indicators of problems are raised through other reporting or review
              mechanisms. Develop strategies to address those problems only.

�	            One State PlanJ Require States to submit one coordinated State plan for all child
              welfare services.

Make more efficient use of resources required to conduct reviews.

Implementation              options

�             Title IV-E Reviews - Automation      Automate the Title IV-E review process.

�	            Title IV-E Reviews - Self-CertificationJ       Allow States to certi@ that their payments
              are eligible under Title IV-E.

�	            Title IV-E Reviews - Limited Scope& Limit the Title IV-E reviews to income
              eligibility and payment allowability issues.




              ‘May require new legislation.


                                                         v
          �	    Section 427 ReviewsJ Discontinue Section 427 reviews or sharpjy reduce the use
                of them.

          �	    Discontinue Planning and Prom-am Reviews J Use other technical assistance efforts
                instead of Title IV-B joint planning and program reviews.

          �	    Limit Background Sections Shorten introductions to reports, which often focus on
                information about which the States are aware.

 Provide States with more useful, comprehensive, and expert advice on management
 program, and technical issues.

 Implementation              options

     �	        Existing Mechanisms Focus more resources on joint planning, program reviews,
               and the training of regional officials to conduct technical assistance.

     �	        Non-~overnmental Contracts Use funds to contract with non-governmental
               organizations to provide general technical assistance to States.

     �	        Problem Areas Using a combination of ACF officials and outside contractors,
               provide intensive technical assistance to States or regions of States that have
               extreme problems.

More effectively share information with and among States.

Implementation              options

 �	            Effective Practices Using oversight mechanisms, identify effective practices.
               Produce regular (at least semi-annual) reports that outline these practices and list
               contacts in the States. Actively share reports and State plans that outline effective
               practices.

�	             On-Line Service Develop a simple, electronic, on-line service for States to share
               information about strategies, innovations, and other issues.

Improve and clar@ communication with States about program standards.

Implementation              options

�	             Reasonable Efforts Collect information on States’ definitions of “reasonable
               efforts” and identi~ model definitions.




               ‘May require new legislation.


                                                       vi
     �	   Central Office Hotline Establish a central office hotline to respond promptly to
          regional office and State inquiries about review policy, standards, and
          interpretation of regulations and statements. Follow up inquiries w“th written
          confirmations that are shared with all States and regional offices.

 �	       Program Remdations Publish comprehensive program regulations for Section 427
          and Title IV-E that would be subject to notice and comment.

Improve the timeliness of reporting on results of reviews.

Implementation         options

�	        Mandatom Turnaround       Require reports to be issued within a set time after a
          review is complete.

�	        Performance Reporting Develop goak for turnaround of reports.       Then collect
          and disseminate information on the timeliness of reporting.

�	        Streamline Decision-making Clari& who in ACF has the authority to decide on
          policy matters and final reports.

�	        Limit Scope of Reviews J Reduce the complexity of the reports by narrowing the
          scope of the reviews.

COMMENTS ON OUR DRAFI’ REPORT

We shared our draft report with and solicited comments from the Administration for
Children and Families (ACF), the Assistant Secretary for Planning and Evaluation
(ASPE), the Assistant Secretary for Management and Budget (ASMB), and the
Assistant Secretary for Legislation. We received written comments from ACF and
ASPE. We reproduce these comments and provide detailed responses to each in
appendix C.

We are pleased that both ACF and ASPE concurred w-th our recommendations and
found the report useful. We made changes in our report based on the technical
comments we received.




          ‘May require new legislation.


                                                 vii
                         TABLE                    OF CONTENTS


                                                                                                                     PAGE
  EXECUTNE         SUMMARY

  ~oIWmW

       . .         . . ...............                            . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


  ACCOMPLISHMEm                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


 SHORTCO~GS


     O=RALL         APPROACH               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


     PROCESS.        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...13


              . . . .........
 RECOMMENDATIONS.                                            . . . . . . . . . . . . . . . . . . . . . . . . . . . ...19


 cO=~ONTHE                     DRAFT REPORT                   . . . . . . . . . . . . . . . . . . . . . . . . . . ...29


 APPENDI~


&Major     Child Welfare Programs . . . . . . . . . . . . . . . . . . . . . .

                                                              . . . . . . . . . . . . . A-1

B: Federal Oversight Mechanisms for State Child Welfare Programs . . . . . . . . . B-1


C:	 Detailed Comments andOIG                Response         . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                             . . . . c-1

D: Methodolo~        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l

E: Detailed Evacuation of Implementation                  Options       . . . . . . . . . . . . . . . . . . . . . . E-1


ENotes.      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..F-l
                          INTRODUCTION

PURPOSE

To assess and to find ways to improve oversight of State child welfare programs.

BACKGROUND

In 1980, Congress passed The Adoption Asistance and Child Welfare Act
(P.L. 96-272) in order to “lessen the emphasis on foster care placements and to
encourage greater efforts to find permanent homes for children.”1 The law signaled a
new direction in child welfare and highlighted an awakened Federal interest in how
States manage their child welfare programs. Among other things, the law increased
funding for a variety of State child welfare semices and separated funding for foster
care and adoption assistance payments from Title IV-A of the Social Security Act (Aid
to Families with Dependent Children, or AFDC). It also refocused Federal oversight
of child welfare by requiring that certain child protections be in place for States to be
eligible for Federal funds for foster care and other child welfare services. One major
change was a greater emphasis on the enforcement of legal requirements to ensure
the eligibility of children in the foster care system. For example, State court judges
were required to include certain findings about the appropriateness of the foster care
placement before a child could be considered eligible for Federal matching payments.

Fundkg

The Federal government funds State child welfare services through three significant
mechanisms, all of which are under the Social Security Act .2 The largest proportion
of monies comes from Title IV-E, with lesser amounts from Title XX and Title IV-B
(see appendix A for more details). A majority of Federal funding goes for foster care
maintenance payments and administrative and training expenses associated with foster
care under Title IV-E.3 Costs for administration and training are a huge and growing
proportion of Federal child welfare funding!

   Title IV-E

Title IV-E funding is limited to foster care, adoption assistance, independent living,
and administration and training associated with those programs; only children whose
families are eligible for AFDC are eligible for Title IV-E foster care and adoption
assistance funding. Title IV-E is an open-ended entitlement program.5 In fiscal year
1993, it is estimated that $2.9 billion was spent on Title IV-E programs.




                                           1

    Title XX

Title XX-funded social semices block grants may be used for a variety of child welfare
services. In total, Title XX social selvice block grants were funded for $2.8 billion in
1993. The money may be used to help States meet five social services objectives; only
one is directly related to child welfare services. According to a 1986 survey conducted
by the American Public Welfare Association, States spent 27.5 percent of Title XX
funding on child welfare services.

    Title IV-B

Title IV-B Subpart 1 is a capped entitlement program that can be used for a wide

variety of child welfare services; children and families who benefit from the services do

not have to meet any income eligibility criteria. Substantial supplemental Title IV-B

funding is available to States under Section 427.6 The Section 427 funding was set up

to provide incentives to States to establish and maintain certain protections for

children in the States’ care. The Title IV-B appropriation for fiscal year 1993 was

$295 million. The Omnibus Budget Reconciliation Act of 1993 (OBRA 93) created

Subpart 2 under Title IV-B. This new capped entitlement is for family preservation

and family support services. Congress authorized $60 million in Subpart 2 funding for

fiscal year 1995 and $930 million over five years. Section 427 is not applicable to

Subpart 2 funding.


OvernightMechanisms

The Federal government, through the Department’s Administration for Children and
Families (ACF), oversees State child weifare services using the following formal
mechanisms: Title IV-E reviews, Section 427 reviews, program reviews, and State plans
(see appendix B for details on oversight mechanisms). In addition, ACF acts as a
resource for States on a variety of fiscal, administrative, and programmatic issues. The
ACF has not conducted reviews of Title XX block grants, although it has the authority
to do SO.

   Title IV-E Reviews

Title IV-E reviews are intended to assure that States spend Title IV-E money
appropriately. They are usually conducted by a team of both fiscal and programmatic
staff from the ACF regional office and, when possible, from ACF headquarters.’  The
ACF conducts reviews of Title IV-E foster care maintenance payments, adoption
assistance payments, and, occasionally, administrative and training expenses.

The foster care and adoption assistance reviews determine, through record reviews,
whether the child’s family is financially eligible, whether there is documentation
indicating adequate review by courts and case workers, whether foster homes are
licensed, and whether individual payments are allowable.



                                           2

The administrative and training reviews focus on whether systems for claiming and
apportioning costs are accurate. Included in these reviews are checks on systems for
internal control in the areas of rate setting and of payment and edit check procedures,
and examination of the accuracy of methods used for assigning administrative and
training costs to Title IV-E.

Standards for Title IV-E reviews are based on specific statutory requirements.

    Section 427 Reviews

The main objective of Section 427 reviews is to ensure that States have the necessary
systems and policies in place to be eligible for incentive funds. Among the required
protections are that States must take steps to prevent the need for removal of a child
from his/her home, they must develop a case plan and review system for each child,
and they must set goals for all children in foster care. States must also have
implemented a Statewide information system on children in foster care.

Federal oversight of Section 427 is a two-stage process: (1) an administrative review
that is done the year after a State claims to be eligible for 427 funds, and (2) a survey
of case records which is done periodically after the administrative review has been
passed.8 The Administrative Procedures Review determines whether States have
developed systems to assure protections for children in foster care. The Case Record
Survey confirms that the Section 427 protections are in place in a certain percentage
of children’s records in the State review files. If a State is found out of compliance,
ACF issues a disallowance against the State’s allotment of Title IV-B funds for the
following fiscal year and incentive funds are no longer granted.9

Standards for Section 427 reviews are based on specific statutory requirements.      ~

   Program Reviews

Prior to 1980, qualitative program reviews were the primary mechanism for Federal
oversight of States’ child welfare systems. With the move toward fiscal and
compliance-based reviews as a result of P.L. 96-272, the Federal government
suspended program reviews in 1983. Program reviews were reinstated in 1990 when
ACF identified the need for States to have their child welfare programs assessed in a
systematic way and to receive more technical assistance.l”

The ACF designed program reviews to improve semices to children and their families
by periodically assessing State and local programs. States participate voluntarily.
Teams of State agency staff, Federal regional office reviewers, and a Children’s
Bureau specialist conduct on-site interviews and review case records with State agency
officials, program beneficiaries, and staff of local agencies.

The objectives of a program review are (1) to provide a systematic method of
assessing the effectiveness and efficiency of child welfare programs at the State and


                                            3
local levels of service delivery; (2) to provide a basis for assisting States and local sites
to identi& areas in which program improvement is needed; and (3) to provide a flow
of management information between the States, local sites, and the Children’s
Bureau.11 Program reviews identifi exemplary programs as well as program
weaknesses and recommend specific p]ans for improvement. There are no penalties
attached to the reviews, nor are States required to implement the recommendations.

    State Plan Processes

P.L. 96-272 also requires ACF to confer with States about their child welfare programs
through the State plan process. States must have specific plans for the provision of
child welfare services in order to be eligible for payments under Titles IV-B and
IV-E.*2 There are separate planning processes for Titles IV-B and IV-E.

State and HHS staff jointly develop the Title IV-B State plan; the plans describes
States’ child welfare setices and the steps they plan to take to expand and strengthen
en”sting programs. These plans must be submitted at least once every three years.
The Title IV-E foster care and adoption assistance programs are included in States’
Title IV-B plans, but these programs apply only to children eligible for AFDC.13

There is a separate Title IV-E State plan which is developed by the State, and
submitted to the Secretary for approval. It is based on a set of questions developed
by HHS requiring information from the States about specific goals as to the maximum
number of children in care for more than two years, a description of steps to meet
these goals, and a case plan review system.

Z’?ieOmnibus Budget Reconciliation Act of 1993 (OBRA 93)

On August 10, 1993, the President signed into law OBRA 93. This law increased
funding for Title IV-B to encourage State efforts to support and preseme families
(known as Title IV-B Subpart 2). The original version of the bill proposed major
alterations to the oversight process. 14 The law, as passed, left most of the oversight
processes unchanged. The OBRA 93 has an impact on oversight in three areas. First,
additional Title IV-B Subpart 2 funding ($2 million in fiscal year 1994 and $6 million
thereafter) has been authorized for ACF to use for evaluation, research, training, and
technical assistance; next, Title IV-B State plan requirements were changed to reflect
Subpart 2; and finally, the Federal government was barred from issuing disallowances
as a result of Section 427 and Title IV-E reviews until October 1, 1994.

Basis for and Scope of Our Study

Members of Congress, HHS officiak, the General Accounting Office, directors of
State child welfare agencies, and representatives from the Child Welfare League of
America and the American Public Welfare Association are among those who have
voiced concerns about the Federal oversight processes.ls At hearings conducted in
1991 by the House Committee on Ways and Means, witnesses testified at length about


                                             4
the problems with Federal oversight; in particular, they were concerned that the

reviews elevate process issues over quality of services.lG


Critics believe that, in several ways, the oversight processes do not support the intent

of P.L. 96-272. In addition to the OBRA 93 moratorium, Congress twice acted to

suspend penalties levied against States that have been found out of compliance during

427 reviews.17 The ACF has convened several task forces and engaged in high-level

deliberations about how to improve the review processes.18 As part of their efforts

to improve oversight, ACF officials requested that we prow”de them with an

assessment of oversight activities and develop a range of proposals to address

problems we identified.


Given the level of interest expressed by Congress, the States, the Administration, and

child welfare advocates in child welfare and Federal oversight of State programs,

changes to the oversight system are likely. This report presents information which we

hope will be helpful to decision makers as they consider improvements to the

oversight of child welfare programs. In this report, we evaluate the scope of and

approach to Federal oversight activities (which includes the statutorily mandated

features of oversight), as well as the conduct of these activities.


This report is primarily focused on the review and planning mechanisms used by ACF

to oversee State child welfare programs. In our interviews with State and ACF

officials we also discussed the other less formal mechanisms that ACF uses to oversee

States such as technical assistance efforts, The report therefore often uses the term

“oversight activities” in a general way, This report is not focused on reevaluating

specific findings or disallowances from any reviews of State child welfare programs.

We assume, and have no reason to believe otherwise, that all disallowances taken as a

result of reviews were based on direct application of Federal statute.


In addition, although our primary focus is on ACF oversight activities, we feel it is

simpler and more appropriate to speak about “Federal” oversight activities. The ACF

is not alone in responsibility for administering and designing oversight activities. The

HHS and Congress have significant roles in this process. As noted throughout the

report, many aspects of the oversight processes are defined by Federal statute.

However, our use of the term “Federal oversight” is not intended to include reviews

and audits of State child welfare programs outside of ACF’S purview--for example,

reviews and audits conducted by the OIG Office of Audit Services or the General

Accounting Office.


While many observers of and participants in the oversight processes have raised issues

similar to those raised in this report, this report is meant to serve several unique

purposes. First, we provide detailed analysis of the oversight process, using multiple

sources of information. The methods we used allow us to make well-balanced and

conclusive statements about the approaches and performance of oversight. Second, as

mentioned above, we assessed the entire system of Federal oversight including

technical assistance activities, planning activities, and review activities. Finally, our



                                            5
central objective is to find ways to improve oversight. We do not prescribe a specific
course of action, but instead identify key areas in which improvement is necessary.
We then present a range of implementation options in each area. The report is,
therefore, meant to be a single, comprehensive document that will hopefully establish
the context and provide general perspective for officials to make improvements in the
oversight system. Our Office of Audit Services has issued a draft report which focuses
on specific improvements in the eligibility process.lg

Methodology

We collected data from three primary sources. First, we conducted document reviews.

We reviewed all available reports from Section 427 reviews, Title IV-E reviews, and

program reviews conducted in each State in the last five years. We gathered and

analyzed reports, journal articles, legislative and regulatory proposals, and information

from court proceedings. Second, we interviewed State child welfare officials. We

conducted inteniews on-site in 3 States and over the telephone in 10 States--one in

each HHS region. Finally, we intemiewed officials in each of the 10 ACF regional

offices over the telephone and held numerous discussions with officials in the central

office of ACF. (See appendix D for a complete description of the primary data

collection methods and sample selection criteria.)


In our presentation, we blended information from these three sources. We

supplemented the opinions and conclusions of State and ACF officials with evidence

from review reports, literature, laws, regulations, and court proceedings. Whenever

possible, to account for potential biases, we balanced interview data from State

officials with interview data from ACF officials. We did not evaluate the accuracy of

statements made in interviews about the accomplishments and shortcomings of

Federal oversight except by using the above-noted sources. Nonetheless, because

State officials frequently agreed with ACF officials and the evidence from reports and

other sources support the interview information, we are confident of the validity of our

conclusions.


We conducted this inspection in accordance with the Quality Sandards for Inspections

issued by the President’s Council on Integrity and Efficiency.





                                           6

                     ACCOMPLISHMENTS

Federal ovtzright of State child welfare programs has served some important purposes,
parh”cuhw-lyin establishing new directions for child welfare in the early 1980s.

Since the early 1980s, Federal oversight of State child welfare programs has been
focused on assuring States’ adherence to P.L. 96-272. Several State and Federal
officials we interviewed spoke about the positive new directions in State programs
resulting from P.L. 96-272 and Federal reviews focused on the law. States were
prompted to develop written case plans and conduct periodic judicial and
administrative reviews of children’s cases; these were procedural breakthroughs in
many States. The requirement to make reasonable efforts to prevent family breakups
and reunify separated families was a significant shift in objectives on the part of the
Federal government. State officials we spoke with said that oversight led them to
create new laws parallel to Federal laws, clean up existing laws, and formalize existing
procedures. Officials from ACF cited more effective coordination between agencies
and State judiciaries, and better family-centered services resulting from the law and
the oversight process, and mentioned that children are less likely to get lost in the
foster care system.

In addition, oversight has helped prevent States from illegally receiving Federal funds
for ineligible activities or on behalf of ineligible families. For example, in one State,
ACF recovered over $200,000 in Federal funds because payments were made to
ineligible or unlicensed providers. In another State, ACF recovered over $190,000
spent by the State for children from families without financial need. The fact that
ACF verifies through a review process that funds are spent legally undoubtable deters
States from making ineligible claims. While it is impossible to measure this effect, it is
nonetheless important.

There is, therefore, little question that the oversight mechanisms in use since the early
1980s have served important purposes. There are indications, however, that the
oversight mechanisms and framework do not allow the Federal government to provide
adequate stewardship of Federal funds or leadership to States for the 1990s and
beyond. Evidence of these indications follows. Many of the shortcomings stem
directly from the requirements set out by Federal statute, while others are matters of
administrative discretion not strictly determined by statute.




                                            7

                    SHORTCOMINGS
                IN GENERAL    APPROACH

i%e overall approach to Federal ovemzght has not addressed many of the vital ti
States face in adminktetig child welfare programs.

   �	   Federal oversight has not recently prompted States to improve and address ne
        and complex problems in child welfare.

The state of child welfare services has changed significantly since P.L. 96-272 was
passed. Many sources have identified a crisis in child welfare services. Numerous
disastrous incidents have occurred lately to children under State supervision.20 State
child welfare agencies are overwhelmed by escalating case loads and the increasingly
complex problems of children in care. There are increasing numbers of infants in
State care, many of whom have difficult medical problems caused by substance-
abusing parents.z* In addition, adolescents and teenagers in care frequently have
substance abuse or mental health problems, or have been involved in criminal
offenses .22 These issues complicate substitute care situations and greatly decrease
the chances of successful permanent placements. They also place ‘tremendous burden
on case-worker systems that are already at or above capacity.

State officials we spoke with did not think recent Federal oversight activities have
helped them cope with current crises, because reviews do not address the most
important issues in child welfare (such as appropriate methods to assist very troubled
children and families). Some program improvements (such as reductions in numbers
of children in long-term foster care placement and more effective coordination
between agencies and their judiciaries) have occurred recently, but oversight is usually
not spurring advancements in State programs. In fact, some States find that Federal
oversight has had detrimental effects or has never had much positive effect on their
programs. Some cited no changes at all. States cited a variety of changes that
oversight has recently spurred that were not positive. For example, State officials felt
that alterations to the case review process such as timing of the reviews, new
procedural changes to an automated pa~ment system, and changes to a case planning
document to assure the documentation of requirements had no positive effects; in fac
they felt these responses required attention and resources that could have been used
to address important issues.

Several State officials mentioned that they had a hard time convincing their
legislatures of the need for change without Federal dollars being at risk. Nevertheless,
even though every State has had a 427 review, only five States have failed 427 reviews
since 1988 and, because of Congressional moratoria, no State has lost Federal funding
because of a failure in that time period. Some observers feel it is time to move
beyond the Section 427 requirements, in part because most States have adequately
met the requirements. z States have been somewhat less successful in Title IV-E


                                           8

reviews; nevertheless, of the States reviewed by ACF, only twelve States have had
major (Stage II) disallowances in Title IV-E foster care reviews and only two States
have had major (Stage 11) disallowances in Title IV-E adoption assistance reviews in
the last five years.

Even if the reviews were addressing the current set of problems, State action as a
result of the reviews is voluntary. Except in the rare cases of disallowances,
disregarding ACF findings may not have ramifications for the States. When States
fare poorly, ACF’S only mechanism for verifying improvement is to review them in the
future. In general, ACF does not monitor or require documentation of policy,
program, or system responses to Federal reviews.

   .	   Federal oversight reviews have not identified severe problems with several
        States’ child welfare programs that were specified in successful lawsuits against
        States.

In 4 of the 13 States in our study, lawsuits based on charges that States were violating

Federal law resulted in court-approved settlements. These suits all were initiated after

the passage of P.L. 96-272. While the allegations of the lawsuits were never subject to

court adjudication, the plaintiffs in these suits accused the States of not making

“reasonable efforts” to prevent removal of children from their homes and/or to

rehabilitate their families so that the children could return home. Titles IV-B and IV­

E require States to make these efforts. Problems identified in these cases included

failure to adequately track children in care, poor-quality child protection investigations,

extremely long placements in out-of-home care, and lack of State oversight of county-

based sewices.24 Lawsuits have been brought against more than 20 States; many

have been based on violation of Federal law.fi


In three of the four cases, according to State officials, Federal reviews covered the

period of time that the suits’ plaintiffs were in State care. In the other case, according

to State officials, the lawsuit was not specific as to timeframe, According to officials in

all four States, Federal officials did not identify the issues raised in the suits during

reviews conducted before the States were sued. During reviews, ACF made no

explicit mention of States inadequately preventing removal or rehabilitating families.


  .	    Section 427 and Title IV-E reviews have been focused on the written record of
        case work, not on how well children are served.

The review standards for Section 427 and Title IV-E reviews, which are derived from
Federal statute, are oriented toward documentation and the meeting of timing
requirements. The Section 427 reviews look solely at whether actions were taken (and
documented), not whether the actions were done well or had any positive impact on
the child. The Title IV-E foster care and adoption assistance re~iews also look at
documentation issues and not at how well services were provided.




                                            9

 It is not clear that the statuto~ requirements for these reviews ensure effective sewice
provision. In fact, several State and regional officials raised the possibility that States
could pass reviews and still have poor child welfare programs. Most of the State
officials and all of the regional officials we spoke with had problems with the “process”
orientation of the Section 427 and Title IV-E reviews. Officials from every regional
office mentioned that there needs to be more emphasis on qualitative measures and
less on quantitative measures. A common concern was that the Section 427 reviews
only check to make sure States are meeting certain timeframes rather than whether
services provided yield improvement. This focus has made States emphasize passing
the reviews rather than following the intent of the law.

Almost all State and regional office officials felt the Section 427 reviews should have
objectives in addition to ensuring certain child protections are in place and assuring
implementation of information systems on children in foster care.ti Eight of eleven
responding States and se~en of ten responding regional offices felt that the 427
reviews should have different objectives. Officials in seven States and in six regions
wanted the objectives to be focused on quality issues such as how fast a child gets
placed and whether case plans are appropriate.

Many State and regional office officials felt that IV-E reviews should have objectives
in addition to determining whether payments are made on behalf of eligible children,
assuring payments are made to eligible providers, and assessing whether payment
levels are allowable.2G For example, officials in some States felt that the IV-E
reviews should be focused on quality issues such as whether children are being moved
through and out of the system quickly enough. Regional officials said that the reviews
should have a variety of other objectives including focusing more on administrative
and training costs, assessing fiscal and program issues together, and measuring quality.

State and regional office officials suggested changes to the entire oversight system to
address these problems. Officials in almost every State and many regional officials
expressed, in a variety of ways, a desire to have the Federal oversight system focused
less on compliance with standards and more on the quality of child welfare services.
Common suggested improvements included changing the process to be more helpful;
focusing efforts on technical assistance; having oversight be outcomes-based, and
emphasizing models for good practice.27

  �	   Disallowances have often been based on issues that child welfare agencies do
       not control.

Several of the items that Federal statute requires ACF to review in Section 427
reviews and Title IV-E reviews relate to issues over which State child welfare agencies
do not have complete control. For example, during Title IV-E reviews, the Federal
government verifies that court orders indicate that reasonable efforts were taken to
prevent family breakup or to reuni~ the family; and during Section 427 reviews, ACF
checks each case to be sure that dispositional hearings are held within 18 months of
the original placement. A 1993 survey of States done by the American Public Welfare


                                           10
Association found that the leading reason for failure on Title IV-E reviews was related

to judicial determinations; and on 427 reviews, was related to dispositional hearings.a

Our respondents also reported difficulties complying with Federal requirements

related to court orders and timing of hearings; our analysis of review reports

demonstrated this problem as well.29 In theory, taking money away from State child

welfare agencies (and therefore from State budgets) might influence State courts to

respond with new policies or procedures, but many State officials spoke about the lack

of control and leverage they have over courts, and therefore, how unfair and

ineffective it is to impose disallowances based on problems with the courts.


The courts, in some cases of disallowances, may simply be neglecting to provide

needed documentation. For example, ACF officials we spoke with mentioned that, for

some cases, they were able to assess that high quality case work was being done that

would meet any standard of “reasonable efforts,” and yet the court documents did not

include language to that effect. These reviewers speculated that court officials simply

neglected to put the language in the documents; the fact that they failed to include the

language did not indicate that they thought efforts were less than reasonable. Despite

this, ACF reviewers were required to find cases such as these in error.


A draft OIG report, by the Office of Audit Services, further discusses the difficulties

States have complying with statutory eligibility requirements.30 The report also

examines problems raised by legal determinations prepared by courts and discusses the

notion that eligibility requirements can be satisfied when substantial compliance has

been achieved through reasonable efforts.


   �	   The ACF has provided limited technical assistance to States; State officials say
        that ACF does not provide them with new information when it identifies
        program strengths and weaknesses and solutions to problems.

The most direct forms of technical assistance ACF has provided to States are now
rarely available. Funding is no longer available for technical assistance provided by
Child Welfare Resource Centers (CWRCS). Most State and regional office officials
who had experience with or knowledge of the CWRCS felt they had provided useful
setices to States. (However, some central office officials felt that some non-CWRC
contractors who offer technical assistance have provided States with inaccurate and
overly expensive services.) Program reviews, the only oversight mechanism explicitly
designed to provide technical assistance, have not been performed on a wide scale and
have often been fraught with problems. The reviews have been done in only 15 States
since being reinstituted in 1990 and, according to a senior ACF official, ACF is not
planning to conduct more in the near future. Many State and regional officials
mentioned problems with the timeliness, scope, and design of program reviews (we
detail many of these problems later in this report).

Many State and regional office officials would like ACF to be more involved in and
better trained at providing technical assistance. Officials in some States would like to
see the entire orientation of Federal oversight to be on technical assistance. Many


                                           11

others felt this was an important role, but recognized that Federal officials are not
expert in providing technical assistance and need to be better informed about the field
of child welfare. Some regional officials also expressed a desire to be more involved
in consultative work with the States. Many recognized a need to be more
knowledgeable about State programs, specialized areas, and innovations in child
welfare in general. Officials in the central office of ACF were particularly concerned
that ACF has not provided adequate assistance to States on legal and compliance
issues.

The ACF has convened regular meetings of States and made other efforts to share
information with them, but many State officials said that ACF has not adequately
shared information among States. Officials in States mentioned the specific need for
the Federal government to share information on exemplary programs, on emerging
issues, and on State practices. State officials also mentioned their desire to be able to
read other States’ plans in order to get a sense of issues, problems, and innovations.
Despite the fact that one of the goals of program reviews is to identify exemplary
approaches, Federal officials have acknowledged that no formal effort has been made
to share information from these reviews among the States. In addition, central office
officials point out that knowledge about States is usually localized to particular
individuals in regional offices; there is no existing central repository for information
about States.

It appears that, in general, Federal oversight has not effectively identified program
strengths and weaknesses and helped States solve problems. All the responding States
felt that the information ACF provided them on strengths, weaknesses, and solutions
was information of which they were already aware. On average, respondents from
States rated the effectiveness of Title IV-E reviews, 427 reviews, and the Title IV-B
State planning process in identi~ing strengths, weaknesses, and solutions as less than
“adequate.” Regional office ratings were slightly higher, but respondents from
individual regions felt these processes couid more effectively address program issues in
States.




                                           12

          SHORTCOMINGS                             IN PROCESS

 Problems with the conduct of Federal review and planning activities have hampered thek
 @i%iency and effectiveness.

   �	   Federal review activities have been resource intensive for State agencies and
        ACF regional offices.

Almost every State felt that preparing for and participating in Federal reviews was an
unnecessarily time-consuming process. Some State officials complained that far too
much time and money are invested in reviews that no longer do much to improve the
quality of services for children and families. State officials stated that many hours are
spent preparing for, participating in, and following up on an individual review (officials
in one State estimated that 4,400 staff hours were spent on these activities for one
review). The ACF’S own estimates make clear how resource intensive preparing for,
conducting, and following up on Section 427 and Title IV-E reviews have been for
States and the Federal government (see figure 1).
                                                      FIGURE   1
 All of the States with                   How Labor Intensive Are Federal Reviews?
 county-administered
 child welfare
 programs we spoke
with said they have             Mm;
 faced additional
burdens when                   12s0


preparing for Federal          mm
reviews. Because
                                7SQ
their programs are
decentralized, they             Sm

have an additional
                                2s0
layer of bureaucracy
to deal with in                   o                                             —
preparing for reviews.
For example, one
State official
explained that costs in one county for copying and shipping records to the State office
for a 427 review were over $2,000.

On average, according to ACF central office officials, program reviews have involved
15 people as reviewers and dozens more as participants. One large State, which has a
county-based child welfare program, had a program review that involved over 100
people from ACF central and regional offices, the State ageney, county agencies, State
universities, agency staff, clients, and advocacy groups.31




                                           13

Almost every State we spoke with has spent significant time and money monitoring

cases to ensure compliance with Federal requirements. Some States have established

elaborate systems whose primary purpose is to prepare cases for Title IV-E and

Section 427 reviews.


Federal officials spend much time drafting and redrafting reports. Central office

officials point out that many reports to States include lengthy introductory and

background sections that go into extensive detail on the States’ organization,

operation, and program choices--which is information about which the States are fully

aware.


   �	   Review reports have not been issued to States in a timely manner.     This has
        diminished their capacity to improve child welfare programs.

Six of the 15 States that had program reviews in the last five years had not yet
received even draft copies of their review reports by April 1993. Two States in our
sample had yet to receive reports for Title IV-E reviews--one of which was conducted
in 1983. Two States had yet to receive Section 427 review reports; one of these States
had not received any formal feedback from reviewers who conducted their 427 review
in 1987.

Officials in 11 out of the 13 States recounted specific incidents of not receiving review
reports in a timely manner once the review had been completed. For example, 7 of
the 12 States that had had IV-E reviews reported that they had waited at least one
year for their final reports. Officials in regional offices supported State claims that
there have often been long lag times between the conduct and issuance of review
reports, particularly for Title IV-E and program reviews. In fact, eight of the nine
responding regional offices said that Title IV-E review reports were rarely or never
timely; all of the responding regional offices report that program reviews were rarely
or never timely.

Moreover, as our examination of 69 review reports show, reviews have taken place
and reports have been released long after the fiscal year under review was over. On
average, Title IV-E reviews were released over two and a half years after the end of
the fiscal year under review and Section 427 review reports were released almost a
year-and-a-quarter after the end of the fiscal year under review.

Despite the fact that States have often been briefed on the findings of a review during
an exit conference, State and regional officials reported that delays in issuing review
reports diminished their effectiveness and usefulness. Regional and State officials
considered the retrospective nature of reviews to be a significant weakness of the
oversight process because it focuses attention on past rather than current practice; this
problem is heightened by a lack of timeliness in issuing the reports. State officials
mentioned that untimely reviews have identified issues that have become irrelevant to
current State programs; others were frustrated because windows of opportunity for



                                           14

 change have been closed by the time reports are released. In some cases, States have
 been left wondering about the outcomes or bases for disallowances.

 Officials in all of the responding regional offices identified central office reviews as a
 major barrier to timely reporting. The ACF does not impose requirements on
 turnaround time for review of reports in the central office. Most regional officials
 claimed that reports have been reviewed by too many central office staff. The ACF
 central office is aware of this problem, and has recently taken steps to remedy it for
 program reviews. They have revised the review protocol for program review reports
 so that reports are circulated only through the Children’s Bureau rather than all of
 Administration on Children, Youth and Families (ACYF) before being returned to the
 regional offices.

Also, central office officials, while acknowledging shortcomings in the report review
process, pointed out that this is not the sole source of problems with timeliness. They
viewed the report writing process as a collaborative one and therefore felt that both
regional and central offices are responsible for the timeliness of reporting.

   �	   States expressed confusion about the Federal review procedures resulting from
        poor communication by Federal officials.

 While most State officials said that they were given information about standards by
 their regional offices prior to the reviews, officials in 11 of the 13 States cited specific
 problems with the transmission and communication of standards. State officials
 mentioned difficulty getting ACF to resolve review-specific policy issues, differing
 interpretations of standards between ACF central office and regional office staff,
recently issued review handbooks that were already obsolete, and inconsistent
messages in reviews over time. This poor communication apparently caused serious
problems for States. For example, one State was unsure how to claim foster parent
training costs; another could not get policy guidance on State and tribal jurisdiction.
Inconsistent messages about sample selection for Section 427 reviews has made
another State unsure about when to conduct periodic reviews and judicial
determinations (see table 1 for other examples of States’ problems with
communication of standards). We did not independently validate the accuracy of
States’ claims about inconsistencies and inadequacies in communication about
standards. Nevertheless, we believe the very fact that States feel these are problems
indicates a need for better communication.

Some State and regional office officials have attributed poor communication of review
standards and regulations to the lack of formal review guidelines and regulations. For
example, Section 427 reviews were first implemented in 1980, and to date, there are
still no regulations. Another source of confusion has been the absence of final Title
IV-E review regulations on methodology and audit procedures.

While States have cited problems with communication of standards, we did not find
evidence that ACF has misapplied Federal statutory requirements in developing


                                             15
                                                  TABLE 1
                                   SPIXIFXC PROBLEMS   WITH STANDARDS
                                      ACCORDING   TO WATE OFFICIALS



 COMMUNICATION

        *    The State was never given a cow of the most recent Title IV-E review handbook
        *   A critical change to the IV-E review checklist was not communicated in advance.
        *    The State has not yet seen the IV-E foster parent training regulations.
        *    Z$ere was somt confhsion in communication fi-om the Federal government over how dtjjferent
            fimding streams work
        *    Ihe current 427 handbook k already out-o fidate.
        *    Some standards in the reviews are not consistent with information presented in policy guidances.
        *   Because communication from the regional ofice is poor and sometimes incoruistent, the State
             speh     directly with central ofice ACF officials and outside organimdons about interpretatiotw
        *    Subtle twkts and variations on standards have been added during reviews.
        *   Rep”onal of~ces and States had d~ficulty resolving policy questions around m“balversus State
            jurisdictions (re: fitnding).
        *   States were unable to get reg”onal office response on whether medical and educm’on records were to
            be included in the Section 427 reviews.



CONSISTENCY          OVER TIME

        *   The State was cnticued for something that it had been praised for two years earlier.

        *   I%ere was a new twist in the latest review on whether administrative case plain should be signed in

            evety review.

        *   Zkere has been a lack of coritktency in guidance on what to consider the date of removal.

        *   There has been a lack of consistency in communications about whether to include children in

            relative care in the 427 sample.

        *   The reg”onal ofice has changed its opinion on whether standards applied to adoption services.

        *   The regional ofice ha inconstktently ruled on whether agreed orders are acceptable.

        *   The State was sutprised by the standards on licensure and on child support enforcement issues on

            the Title IV-E review.

        *   Review standards have become sti”cter over time.




CONSISZENCYACROSS              SZAIES

        *   The State wm required to pay back voluntary IV-E money, while another State was not (this was

            appealed and the State won).

        *   Federal oficials did a ~“ennial 427 review@       years after the State had pawed a triennial review.

        *   U4thin the region there have been different interpretations in several States on how to allocate

            university training costs for IV-E admt”nistrative cost claims.

        *   The removal-from-home standard was different for a State in another regio~

        *   States are held to standards issued after the end of the fucal year under review.




Source:     Interviews with 13 States conducted by Ofice of Inspector Genera~ May 1993.
Note:       Z% OIG did not inakperuiew~    validate the accuracy of dwse claims.




                                                          16

 review standards.

    �	   There has been inadequate Federal/State    interaction on child welfare oversight
         issues.

The majority of regional officials said that States should be reviewed more frequently.
0fficialsin60f   the 10regional offices reported that States have not been retiewed
frequently enough. Since 1988, according to ACF records, five States have not had
their Title IV-E foster care or adoption assistance payments reviewed; only 15 States
have hadprogram reviews since they were reinstatedin 1990. State officials stated
that the lack of contact has made it difficult for ACF officials to understand the local
child welfare context.

Many State and regional office officials would like to increase the level of
collaboration around the IV-B joint State plan process. Officials in about half of the
States viewed the Title IV-B joint State planning process as an effective mechanism,
but usually despite, and not because of, ACF involvement. State officials cited a
general lack of contact with regional office officials as a major problem with the
process. Most regional officials reported that they were only able to make one or two
visits to the States per year to work on the joint State plan, but they believed for
planning to be truly collaborative they should be making quarterly visits. Regional
officials felt the lack of travel money constrained them from conducting site visits to
the States.

   �	    Officials from ACF and States question whether Federal review and planning
         mechanisms have been adequately meeting their stated objectives.

Many regional and State officials were uncertain about whether the Title IV-E review
process was meeting all of its objectives. Regional officials, in particular, said that the
Title IV-E reviews were too broad; they were expected to examine so many different
areas that it was almost impossible to check any one area as thoroughly as they would
have liked. Because the Title IV-E review was so broad, regional office and State
officials questioned how well these reviews assured that payments were made to high
quality homes and institutions. There was no effort to inspect the sites, and most
reviewers just checked to see if homes and institutions were on a list provided by the
State. Some regional and State officials were also uncertain about whether payment
levels were allowable under Office of Management and Budget (OMB) provisions.32
This was primarily due to lack of knowledge of what the Federal and State funding
levels should be.

Officials in seven of eight responding regions said that program reviews were not
meeting at least one of their objectives. The most frequently mentioned reason why
they thought program reviews were not meeting their objectives was that they were
too comprehensive. Other problems with the program review cited by regions were
lack of any clear methodology, an unwieldy data collection instrument, inconsequential
findings, and lack of information to help States solve programmatic problems.


                                            17
Half of the regional offices reported that Section 427 reviews have not been meeting
all of their objectives. In particular, they thought these reviews were not adequately
assuring the implementation of a State-wide foster care information system. Regions
said that the level of sophistication of the State-wide information systems varied from
simple handwritten lists of cases to computerized management information systems.

Most regional office and State officials thought that Title IV-B joint State plans have
not been developed collaboratively. Many State officials mentioned that the process
was not truly “joint” because the Federal government does not provide much in the
way of suggestions for planning. Some did not find the State plan at all helpful. Six
States remarked that ACF has done nothing in the way of oversight or assistance to
assure that the State plans are implemented.

The Title IV-E State plan was seen as largely a paper exercise. State officials and
ACF officials agreed that it is rarely, if ever, looked at by ACF.




                                           18

                    RECOMMENDATIONS


Oversight of State child welfare programs continues to be of intense interest to the
Congress, HHS, the States, and others. Congress has placed a moratoriumon Section
427 and Title IV-E review disallowances untilOctober 1994. This moratorium has
coincided with efforts thatACF is makingto reevaluate monitoring activities
throughout the agency andlook specifically at program review and State planning
actiw”ties. Many review activities are on hold. Senior ACF officials have indicated, in
discussions with us, their desire for improvements to the oversight process; they view
the coming year as an opportune time for changes. Legislation proposing to reshape
certain aspects of the oversight process (such as eliminating Section 427 and
reformulating some arts of it as State plan requirements) was introduced on
November 17, 1993.3  f

We hope this report will provide information to help guide decisions on the course of
oversight. We intend for the following recommendations to set out the key areas in
which improvements are needed. We list broad recommendations, then more specific
implementation options for each. We do not prescribe a specific course of action, but
instead offer options for policymakers to consider and leads for them to follow as they
develop an oversight framework and specific approaches (see appendix E for a more
detailed evaluation of the options). Some options are not consistent with others, while
other options fit together very well. Our goal is to offer as many practical ideas as
possible.

Coming up with solutions to the problems we have raised will not be easy. In many
cases, the current oversight approaches and processes are set by Federal statute.
Some of the options we present may therefore require changes to the statute (these
are denoted by a 6). Other options could be implemented at the discretion of ACF
without Congressional approval (see appendix E).

In recent years, ACF has focused oversight activities primarily on assuring that Federal
funds are spent legally--that eligibility requirements are met, that legal protections are
documented, that claims are valid, etc. It is important for ACF to maintain this
principle of stewardship of Federal funds. It is at least as important for ACF to work
in partnership with States to make programs work well. Therefore, as a second and
equal principle, oversight activities should encourage States to constantly improve
programs so as to better assist families and children in need. The ACF’S oversight
activities, for a variety of reasons, have not adequately encouraged States to improve.
Our recommendations are focused at helping ACF and the States pursue both these
principles.




                                            19

In order to improve it$ ovenight of State chiki weljare programs, the ACF should

Provide States with more and better feedback on issues related to program
performance.

Officials at the State and Federal level asserted that the current oversight mechanisms
focus too much on process issues that have little to do with the quality of services
provided to children in need.

Implementation         options

    �	    Performance Indicators Develop pe~onnance indicators, collect State-by-State
          informah”on on them, and dkseminate this information to all States on a periodic
          bask Because there are not any widely accepted definitions of successful child
         welfare practice, it could be extremely complicated to develop performance
          indicators. The task could be limited initially by pilot-testing a small number of
          indicators. Some of the difficulty gaining States’ acceptance of the indicators would
         be lessened by not linking the indicators to financial sanctions. States would likely
         find it very helpful to track performance over time and compare themselves with
         others. Getting this information would help raise questions and keep State officials
         focused on results. The development and testing of performance indicators in this
         way could evolve into an outcomes-based review system as outlined below. The
         ACF could pursue one of a number of avenues in its development of performance
         indicators; here we suggest two. One idea is for ACF to identi~ how States
         currently measure their own performance and what kinds of information they
         collect on a regular basis to inform their funding and program decisions. It could
         be that many States already agree upon a small set of measures and these could be
         used as a basis for pilot testing national collection of this information. Another
         idea is to hire a contractor, possibly one associated with a national association that
         already has contact with the States, to develop a pilot indicator system.x

�        Outcome-Based Reviews8 Replace exzking review mechanisms with new review
         processes that relate resources to outcomes. Some States have argued that this is the
         direction they think reviews should go--in part because it would allow them to
         argue very forcefully with their legislatures for adequate funding (in fact, several
         legislatures are considering requiring agencies to justi~ funding based on
         outcomes). On the other hand, the difficulties mentioned above about
         development of performance indicators would be heightened if outcomes measures
         were used in reviews. If financial assistance were based on performance, it could
         be enormously difficult to decide upon measures to be used. It will be necessa~ to
         develop measures using the approach outlined in the first option in order to reach
         a practical consensus on expectations. This option might require new legislation.




         ‘May require new legislation.


                                                20
          Any of the existing review mechanisms, including Title IV-E reviews, could be
          altered to become outcome-based.

Find new ways to work with States to make program improvements and address
problems.

Existing oversight mechanisms do very little to encourage States to make
improvements and to address problems. The mechanisms are not helping States be
innovative and do not encourage continuous improvement.

Implementation         options

    �	   Corrective Action PlansJ Rather than automatically sanctioning States financially in
         response to adverse review findings, use, when appropriate (i.e., at the discretion of the
         Secreta~), the results of reviews to develop corrective action plans, with agreed-upon
         time frames, to improve programs and enforce legal requirements. Waive or reduce
         dkallowances, when appropriate (at the dkcretion of the Secreta~), if States comply
         with plans and time frames. 35 The existing oversight system, with its disallowances
         and financial penalties, can have the effect of further weakening States that are
         having problems. By allowing for improvement and laying out specific actions that
         must be taken, ACF would become a partner with States and prospects for
         improvements in programs would be greater. The law might have to be altered to
         implement this option without precluding ACF from disallowing State funding
         when Federal law is being significantly neglected and without imposing a “re-
         review” burden on ACF. Any existing or future review mechanisms could use
         corrective action plans.

�        Accreditationd Using new or existing accreditation bodies, make accreditation of
         programs a Title IV-B State plan requirement. Oversee the accreditation bodies to
         assure that they are fair, reasonable, and pursuing continuous improvement. By
         relying on independent bodies to accredit States, ACF could potentially avoid some
         conflict with States and free up resources for other oversight mechanisms.
         Finalizing reliable accreditation standards will not be simple for any body to devise,
         but work has begun in this area already. To change State plan requirements, it is
         important to change the law. States would have to be able to get reimbursement
         from ACF for the costs of accreditation.

�
         Qualitv Assurance Require States to have quality assurance programs that look at the
         quality of case work Many States conduct quality assurance activities that look
         primarily at whether documents are in place to comply with Federal requirements.
         The units that conduct these activities could be focused on more significant quality
         assurance activities; they could involve case workers in the assessment exercises.
         Although the States could see this as too prescriptive, ACF could specify in



         ‘May require new legislation.


                                                  21
     guidance or regulation what types of quality assurance should be done by States.
     This would put the onus of program improvement on the States. According to
     some ACF officials, the States are harder on themselves than ACF is. The
     additional administrative expenses for States could be significant for this option,
     but it would, after implementation, require little day-to-day management by ACF.
     An important issue to resolve is the level and nature of Federal reviews of each
     State’s quality assurance activities.

Improve current planning and review processes to make them more effective.

State and ACF officials feel the current review processes are too focused on
unimportant documentation details. The current methods also do not give States
incentives to improve. If the current review methods are replaced in the future, new
methods should remain attentive to issues of effectiveness.

Implementation     options

�	   Title IV-B Planning Emphasis Put less emphasis on compliance reviews (such as the
     Section 427 reviews) to assure protections are in place in States and, instead, use a
     revitalized joint planning process lo provide strategic direction that will lead States to
     effech’ve child welfare programs. While the Title IV-B planning process is currently
     not very effective, more leadership from ACF on the process could allow it to push
     for the types of improvements that many of the compliance reviews now seek.
     Regional staff might need additional training to properly undertake this role, but
     this shift in roles could make the oversight process more efficient and effective.
     The ACF has mentioned in draft program instructions the possibility of more
     emphasis on joint planning.

�	   Substantive Title IV-E Reviews8 Use tile Title IV-E review process to assure States
     are substantially complying with foster care case planning and review and judicial
     determination requirements. Limit disallowances to instances of substantial non-
     compliance. 36 The Title IV-E review process is often focused on whether certain
     forms are filled out appropriately rather than whether, in fact, the purpose of the
     law in preventing unnecessary placements is being met. The option may require
     reviewers to dig much deeper into case records to test whether the States have
     “substantially complied” with requirements. This will make the reviews more labor-
     intensive and may require training of reviewers to make them able to judge
     substantial compliance. Legislation to alter current law would be necessary to
     implement this option. A draft OIG report, by the Office of Audit Sem”ces,
     includes much detail on this subject. 37 Clearly, this option might lessen the
     responsibility and authority the courts have in assuring child protections. One
     approach that might preserve the authority of the courts and address some
     problems would be for reviewers to make independent judgments on compliance



     ‘May require new legislation.


                                              22
     with the court-related protections only when the courts did not make explicit
     judgment one way or the other on the protections. For example, if a court simply
     did not specify that reasonable efforts were made, using this approach, reviewers
     would be able to make that judgment independently. However, if the court
     specified that reasonable efforts were NOT made, reviewers could not second-
     guess this judgment.

�	   427 IncentivesJ Alter the Section 427 review process to provide better incentives for
     improvement. Rather than having full compliance with process requirements be the
     standard for 427 funding score States bused on qualip of case planning and reviews
     once they have pas.wd a triennial review and make the size of the grunts in the coming
     three years dependent on the scores. States may prefer the current system, but this
     option would allow for two things: (1) qualitative assessments of State
     performance and (2) explicit incentives for improvement. Creating a qualitative
     assessment mechanism would be very complex--the outcomes measures mentioned
     in the first recommendation might be necessary. With the current moratorium on
     427 disallowances and many observers calling into question the whole mechanism,
     it may not be sensible to seek adjustments to Section 427. This approach could
     require legislative action.

“	 Focus Program Reviews Change the approach of program reviews to use them only
   when indicators of problems are raked through other reporting or review mechanisms.
   Develop strategies to address those problems only. This option would significantly
   change the purpose and conduct of program reviews by requiring them to be much
   more focused on investigating particular problems. By focusing the reviews, the
   likelihood of the reviews adding value to the States would be increased. While an
   attempt to address any one problem could require an analysis of many aspects of a
   State’s child welfare program, a scope that is narrower than all child welfare
   services would likely be less costly than current reviews. Also, with a narrower
   scope, it would be more likely ACF could produce reports in a timely fashion.

“	 One State PlanJ Require States to submit one coordinated State plan for all child
   welfare services. Currently States must submit separate planning documents for
   Title IV-B Subpart 1 child welfare services, Title IV-B Subpart 2 family
   preservation and family support, Title IV-E foster care and adoption assistance,
   Title IV-E independent living, and child abuse and neglect. The Title IV-E foster
   care and adoption assistance plan, in particular, appears to serve little purpose.
   The ACF could coordinate all of these planning activities and thus encourage
   States to think comprehensively about child welfare services. The law might have
   to be changed to implement this option. The ACF mentioned in draft program
   instructions the possibility of creating a consolidated State planning process.




     ‘May require new legislation.


                                            23
Make more efficient use of resources required to conduct reviews.

Significant State and Federal resources go into preparing for and conducting reviews.
It appears that the reviews may not be conducted efficiently. Improved review
efficiency could allow ACF a more active role in other important areas such as
technical assistance. If current review processes are not going to be replaced, they
should be made more efficient; regardless, the lessons learned here should be heeded
under any oversight system.

Implementation    options

�
     Title IV-E Reviews - Automation Automate the Title IV-E review process. This
     would require a massive investment in improving management information systems
     in States (a worthwhile cause in its own right), but could allow for much simpler
     review and oversight of eligibility and payment issues. Clearly, this is not an option
     that could be pursued in the short run, but may be a long run objective.

.	   Title IV-E Reviews - Self-CertificationJ Allow States to certifi that their payments
     are eligz”bleunder Tide IV-E. Some States argued that they are being reviewed over
     and over for the same issues. The Federal government allows States to conduct
     State-wide (A-128) audits. The State-wide auditors look at the same issues as ACF
     auditors. In general, when a State has conducted an A-128 audit, ACF will accept
     the State’s findings and not conduct a review in that year. This practice could be
     expanded or some other form of self-certification or review could be instituted.
     The ACF would have to be aggressive about following up on self-certification or
     audit processes.

�	   Title IV-E Reviews - Limited Scope& Limit the Title IV-E reviews to income
     eligibility and payment allowability bsues. Given the lack of control State child
     welfare agencies have over courts, basing disallowances on issues such as content
     and timing of court orders may be the wrong emphasis. Furthermore, giving States
     fewer resources may not make it any easier for States to meet these requirements.
     It is possible that ACF could use other mechanisms--such as technical assistance or
     better State planning efforts--to encourage States to meet the spirit of these
     requirements. Since Federal statute lays out these requirements, in order to
     implement this option, the law would have to be changed.

�	   Section 427 Reviewsd Dkcontinue Section 427 reviews or sharph reduce the use of
     them. Most States have been successful on Section 427 reviews. It may no longer
     be cost-efficient to review all States for these requirements. Once a State has
     passed a triennial review, it could be argued that it has met Federal requirements
     and does not have to be reviewed using the same standard again. It could also be
     argued that because the reviews look only at process issues, they should not be



     ‘May require new legislation.


                                             24
      doneat all. However, this would miss the few States that arenot currently in
      compliance with the Section and might allow currently complying States to fall out
      of compliance.

 �	   Discontinue Planning and Program Revie~ d Use other technical assktance eflorts
      instead of Title IV-B joint planning and program reviews. If technical assistance is
      going to be provided by outside contractors as stated above, it may not make sense
      for ACF to be heavily imolved in technical assistance. In fact, many ACF and
      State officials felt that many ACF staff have not been given sufficient training to
      perform technical assistance.

 “	 Limit Backmound Sections Shorten introductions to reports, which often focus on
    information about which the States are aware. This option would make the product
    of reviews more readable and would probably improve timeliness of reporting. It
    would, however, make reports less effective as general informational resources for
    ACF and for other States.


Provide States with more usefu~ comprehensive,       and expert advice on managemen~
program, and technical issues.

A common theme in comments by State and ACF officials was the need for better
and more technical assistance. Good technical assistance can help States devise
solutions to problems. It probably does not make sense, for reasons of cost, to
implement more than one of these options.

Implementation     options

�	    Existing Mechanisms Focus more resources on joint planning program reviews, and
      the training of re~”onaloflciak to conduct technical assistance. While planning and
      program reviews have had many problems, more attention and funding to them
      would greatly alleviate many of the issues. To increase these efforts effectively,
      central office and regional office officials should have access to adequate training
      in program areas and technical assistance. Coordinating training so that all ACF
      officials providing technical assistance in a particular area will provide similar
      information to States would be helpful.

“	 Non-~overnmental Contracts Use funds to contract with non-govenlrnental
   organizations to provide general technical assktance to States. This option has the
   advantage of depending on existing expertise. Since some ACF officials have
   expressed concerns about some technical assistance providers, the process for
   selecting contractors would likely need to be rigorous. While the contracts could
   be similar to ones for the former Child Welfare Resource Centers, States did not
   use the centers’ services fully because they were unable to afford the services.
   Therefore, the Federal government will likely need to provide much more funding
   to have States utilize the contracts fully. This effort would require significant new


                                             25
         funding. The ACF has indicated its plans to continue to contract with non-
         governmental organizations to provide technical assistance to States.

     s Problem Areas Using a combination of ACF ofjicials and outside contractor,
       provide intensive technical assktance to Stales or regions of States lhul have exlreme
       problems. This allows the combined strengths of ACF officials and outside
       contractors to be used to focus on big problems. While individual efforts would be
       expensive and disruptive to daily work, this approach would not require ongoing
       funding or staff attention. It has been done in one State successfully. The focused
       program reviews, mentioned above, could be tied in with these efforts.

More effectively
             shareinformation withand among States.

Many States mentioned the need for more and better information about what other
States are doing.

Implementation         options

    �	   Effective Practices Using oversight mechamkms, identifi ej$ective practices. Produce
         regular (at least semi-annual) reports that oudine these practices and list contacts in
         the Slates. Actively share reports and State plans that outline eflective practices. This
         would be a relatively low-cost process. It appears regional offices are already
         identifying effective practices in many review reports; they are just not sharing this
         information widely. State officials spoke about difficulty getting ACF to share
         information from other States. While ACF currently has no central repository for
         reports and State-specific information, States and ACF might find it very helpful if
         a repository were developed and information from it were distributed.

s	 On-Line Service Develop a simple, electronic, on-line service for States to share
   informan”on about strategies, innovations, and odler ksues. While this option might
   be expensive to set up, it would be inexpensive to run and would encourage active
   dialogue among States.

Improveand clarifj
                communication
                            w“thStates

                                     aboutprogramstandards.


State officials expressed a high degree of dissatisfaction with communication about
standards for reviews. The ACF has recently funded a contract for a policy retrieval
system that will make all policy issuances, program announcements, information
memoranda, etc., electronically available to States and others. While this should
improve the situation, we offer some further suggestions.

Implementation        options

�        Reasonable Efforts Collect information on States’ definitions of “reasonable efforts”
         and identifi model definitions. One of the key areas about which States are
         extremely confused is in the definition of this term; Congress is considering


                                                  26
        requesting a study on this issue.% Identifying model definitions would help States
        immensely but would cause controversy.

    .   Central Office Hotline Establish a central ojj?ce hotline 10 respond prompdy to
        regional office and State inquiries about review policy, s~andards, and interpretation of
        regulations and statements. Follow up inquin”eswith wnlten confhnations that are
        shared with all States and regional offices, A hotline would require responsive
        decision making and authoritative statements on matters of concern to States. It
        might take some responsibility and autonomy away from the regional offices, but
        could address significant problems States have had getting clear and prompt
        responses. It could possibly result in States having less frequent and, therefore,
        less productive contact with regional offices; on the other hand, it could free
        regional officials from having to provide review-specific policy interpretations and
        allow them to have more contact on programmatic issues.

“	 Promam Redations       Publish comprehensive program regulations for Section 427
   and Title IV-E that would be subject to notice and comment. State officials and
   others have noted a need to have review policies much more clearly defined. The
   most straightfonvard solution would be to produce final regulations.

Improvethetimeliness
                  ofreporting
                           on results

                                   ofreviews.


One of the least complex problems identified in this report was the lack of timeliness
of reporting to States the results of Federal reviews.

Implementation       options

“	 Mandatorv Turnaround Require reports to be issued within a set time after a review
   k complele. This is the most straightforward way to improve timeliness, but it may
   bind ACF too much. If ACF does not complete reviews in a timely manner, States
   would be able to appeal decisions on that ground alone.

�	      Performance Reporting Develop goals for turnaround of reports. T+en collect and
        disseminate information on the timeliness of reporting. This is a low-risk option for
        ACF, but it may not provide enough incentive for improvement. Increasing the
        awareness of the magnitude of timeliness problems would likely be helpful.

�       Streamline Decision-making Clanjj who in ACF has tile authority to decide on
        policy matters and final reports. Currently, there are frequent discussions over who
        has authority to make what decision. This change could clari~ roles quite a bit
        and potentially speed the process. The recent initiative to streamline the review
        process on program reviews is a step in the right direction. Similar (and further)
        streamlining could be considered for all types of reports.




                                                 27

�
    Limit Scope of Reviews6Reduce dte complexity of Chereports by narrowing the
    scope of the reviews. It could be that by narrowing the scope of the reviews, the
    ACF report clearance process would be dramatically simplified. There are several
    options on how to lessen the complexity of the reviews, including limiting the scope
    of Title IV-E reviews (as noted above) and parsing reviews into stages.




    ‘May require new legislation.


                                           28
 COMMENTS                    ON THE             DRAFT            REPORT


We shared our draft report with and solicited comments from the Administration for
Children and Families (ACF), the Assistant Secretary for Planning and Evacuation
(ASPE), the Assistant Secretary for Management and Budget (ASMB), and the
Assistant Secretary for Legislation (ASL). The ASMB and ASL advised us that they
had no comments. We received written comments from ACF and ASPE. We
reproduce these comments and provide detailed responses to each in appendix C.

We are pleased that ACF concurred with our recommendations and found the report
useful. While ACF did not suggest any changes to the report, we altered the report to
reflect the action they have taken already on the recommendations.  Staff in ACF
informally provided minor technical comments to the report which resulted in several
changes.

We are also pleased that ASPE felt the report was informative and valuable. The
ASPE made several technical comments, mostly aimed at clarifying our discussion of
the Family Presemation and Family Support Act. We have made necessary changes in
response to those comments.
                                     APPENDIX                                    A


         MAJOI­             FEDERJ L CHILD 1 !ELFARE PROGRAMS
                                                     ~~
TITLE	    1993              Funding type     Covered services        E[igibihy        Match role         Financial
          estimated                                                  cn’tm”a                             oversight
         funding                                                                                         mechanisms

fV-E     $2.854   Billion   Open-ended       Foster care and
        Children from    Medicaid           Title IV-E
                            entitlement      adoption
               AFDC-eligible    match rate for     reviews, Tkle
                                             assistance
             families only    maintenance,       IV-E State plans
                                             maintenance
                             50 percent for
                                             payments,
                               administration,
                                             independent living,
                     and 75 percent
                                             administration and
                      for training
                                             training


IV-B     $295   Million     Capped           Full range of child
    None             75 percent	        Title W-B joint
                            entitlement      welfare sewiccs
                                            plans, Section
                            with incentive   including family
                                           427 reviews
                            funding          presenfat ion

                                             efforts, child

                                             protection

                                             sesvices, and

                                             reunification

                                             services.


xx       $770 Million       Block grant      Social services
        None	            No State          ~ None
         (estimated                          including child
                         funding
         claims for                          protective acrvicea,
                    required
         child welfare                       services to prevent

         Seticea)                            placement in

                                             foster care, and

                                             substitute care

                                             programs.

                                             ____l





                                                        A-1
                                         APPENDIX                                    B


                    FEDERAL OVERSIGHT MECHANISMS
                   FOR STATE CHILD WELFARE SERVICES
REV7EW        Servicer            i Are case           Can monq be               Are               How ofien are      Are the
PROCESS       reviewed            ~ records            taken away as a           administrative    the reviews        reviews
                                  ! reviewed?          re.su[t of reviews?       costs reviewed?   conhcted?          manaktory?
                                  ~ How many are
                                  ! rm,iewed?

Tkle IV-E     Foster care         ~ Yes. Stage I       Yea. Stage 1:             Yes, either in    No set             Yes. statea
reviews       and adoption        ~ reviews 50         only claims in            combination       schedule.          are subject to
              assistance          ~ payments. If       error are                 with or           Some States        review once
                                  !	 high error        recouped. S[age           separately        are reviewed       they receive
                                     rate. then        II: sample error          from other        yearly others      Title IV-E
                                  : Stage 11           rate applied to           reviews.          have not been      funding.
                                  \ reviews at least   univeme of                                  reviewed in
                                  ~ 200 payments       payments                                    over five years.

Section 427   Foster care         !	 Yes. Sample       Yes. State can           No, but            At least once      Yes. Statea
reviewa                              of 140 Casea      lose incentive           administrative     eve~ three         are subject to
                                     drawn from        funding.              I	 procedures         years.             review once
                                     children in                                are reviewed                          they certi~
                                  ‘	 fo.wer care for                            in the initial                        eligibility for
                                     at least 6                                 review.                               427 funds.
                                     months.

Program       AN child            I	 an tx, but no     No.	                      h’o, but          No set             No.
reviews       welfare                number is set                               administration    schedule. No
              services               in advance.                                 of the            State has been
                                                                                 program is        reviewed more
                                                                                 reviewed.         than once
                                                                                                   since
                                                                                                   reinstated.

STATE PLAN    Services                How ofsen ore    Do States                 Format            Are annual         Are there
PROCESS       covered                                  develop it alone?     I                     Updam.r            perraltitn ~
                                  1 ~t~iued?                                                       required?	         State plans
                                                                                                                      ore not
                                                                                                                      adhered to?

Title fV-B	   AU child                At least once    No. Statea and            The format is     Yea.               No.

              welfare                 every three      ACF are                   relatively

              aeMcea,                 years.           supposed to               unstructured.

              including Title                          develop plans

              fV-E services                            jointly

              and setices
              not funded by
              HHS

fitle fV-E    Foster care,            At least once    Yea.	                     Statea fill out   No.                No.
              adoption                evety three
                               preprinted
              assistance,             yeara.
                                    forms.
              independent

              living, training

              and

              administration

              for AFDC-

              eligible

              children.




                                                           B-1

                            APPENDIX                  C


           DETAILED COMMENTS ON THE DRAFT REPORT AND
                   OIG RESPONSE TO THE COMMENTS

In this appendix, we present in full the comments on the draft report offered by the
Administration for Children and Families (ACF) and the Assistant Secretary for
Planning and Evaluation (ASPE). We also present our response to each set of
comments.




                                         c-1
  �
  P’”“’”’”
         \
~’
z
:
                  DEPARTMENT OF HEALTH &   HUMAN   !jERVICEs
z
  �
  .4 +
   *.*~*
     >
                                                               ADMINiSTRATION FOR CHILDREN ANO FAMILIE
                                                               Office of Ihe Assistant SeCf6!la(y, Suite 600
                                                               370 L’En(ant Promenade. S.W.
                                                               Washington, D.C.20447

                        April   13, 1994
           TO:	        June Gibbs Brown

                       Inspector General

           FROM:       Ma&: Jo Bane      -V’&+_

                       Assistant Secretary

                         for Children and Faud.lias

           SUBJECT:    OIG Draft Report:      llov~r~igh~
                                                    of state Child Welfan
                       Programs,11()~1-01-92-0()770

           Thank you for the opportunity to comment on the draft report,
           “Oversight of state Child Welfare Programs.” We appreciate the
           thoughtful and provocative document that your office has
           developed in its review of the Federal stewardship process and We
           concur with the issues and recommendations that are outlined in
           thQ report.
           The Administration for Children and Families (ACF) is presently
           involved in revising its monitoring policies and procedures, and
           this report is especially  ttiely and helpful in that regard. It
           will also assist the M)? in establishing guidelines to ensure the
           administration of quality child welfare programs which will
           positively affect children and families.
           staff from the Children9s Bureau (CB) have collaborated with your
           staff and have commented on earlier versions of this   report;
           their commants have been incorporated. The ACF has already begun

           to implement some of the recommendations that are presented in

           this report. Specifically, the development of a single,

           coordinated State Plan that encompasses title IV-B, title IV-E,

           child abuse and neglect, and thQ range of child welfare services

           into one document is a proposal that we are pursuing actively.

           The AFCARS (Adoption  and Foster Care Analysis and R~po~thg

           System) regulations  have been published and the CB expects to

           begin receiving State-specific data by May 1995.     Further, the

           CB plans to negotiate with private contractors to provide general

           technical assistance to states. Finally, several months ago the

           CB awarded a contract for a policy retrieval system that will

           make all policy issuances, program announcements, information

           memoranda, etc., electronically available to State and local

           agencies, public and private organizations, advocacy groups,

           educational institutions, and the general public. This system

           will be fully operational in July 1994.

           We look forward to the issuance of a final report and a

           continuing dialogue with you and your staff.

                       OIG RESPONSE TO ACF COMMENTS

We are pleased that ACF concurs with our issues and recommendations.    We are also
pleased that it has already begun to implement some of the recommendations.  We
have made changes in our report to reflect these actions.

In particular, we included references to the action ACF is considering on consolidating
the State planning processes, added a reference to the continuation of non-
governmental contracts to provide general technical assistance, made clear the action
ACF has taken on improving policy dissemination, and removed references to the
need to develop final regulations for the Adoption and Foster Care Analysis and
Reporting System.

Staff at ACF informally extended minor technical comments to the draft report, all of
which resulted in changes to the report. None of these changes affected the thrust of
our discussion.

The ACF recently drafted a report on its monitoring activities (including for child
welfare). It indicates a bold, ambitious, and extremely important new direction for
monitoring. If implemented, the ACF’S draft recommendations would address many
of the issues and respond to many of the recommendations in our report.




                                         c-3
                                                                                 C) fflce of the Secretary
       DEPARTMENT OF HEALTH& HUMAN SERVICES

                                                                                 Washington,    D.C. 20201



                                       ~      41994


TO:	          June Gibbs Brown
              Inspector General

FROM:         Assistant    Secretary
              for Planning     and Evaluation

SUBJECT :     OIG Draft     Report   ‘oversight        of        State   Child   Welfare
              Programs,”     OEI-01-92-O0770


Thank you for the opportunity           to review      and comment on the draft
report    “Oversight    of State    Child Welfare       Programs.”        I found it
to be an informative         report  that   provides      useful    information
regarding    Federal    oversight    of State     child    welfare     program.
While,    as the report      notes,  many of the observations             have also
been made by other        sources,   independent       confirmation       is helpful.

This report         should    prove valuable       as H13S considers       changes      in
these      programs.       In particular,       the observation       that    oversight
activities        focus    primarily      on narrow   papemork       compliance       issues
rather       than on how well children            are being    served     should    lead us
to improve        these    programs     and our admini.strati.on        of them.

We have attached    Some comments,     most of              which clarify          the
discussion   of the new Family     Preservation               and Support          law.




Attachment




PREPARED BY:OS/ASPE/HSP/CYP:BBroman:                  690-6461

                                                            .-




                                               C-4

      Comments     on OIG oversight          of    State    Child      Welfare   PrOgrms


1.     On pages vii and 29, the report        indicates     the need to
       publish	 the Adoption     and Foster   Care Reporting       System
       (AFCARS) regulations,        They were published       in the Federal
       Reuister   on December    22, 1993.   Also,      you should   note that
       OBRA 93 provided      for an enhanced    match for AFCARS. The
       interium   final  rule   on this  provision was also published in
                          .
       the Federal Reulstez      on December    22, 1993.
2.     The Title       IV-B discussion          on page 2 is inaccurate.              The new
       Family     Preservation        and Support        capped     entitlement      program,
       passed     as part      of OBRA 93, established              a new Subpart       2 of
       the Title       IV-B Child Welfare            Services     section.       This capped
       entitlement        is $60 million          in FY 95 and $930 million             over
       five years.          The existing        Child    Welfare     Services     program,      a
       discretionary         program     of $295 million          in FY 9S, is now
       Subpart      1 of lV-B.        Section       427 only applies          to Subpart     1.
       A discussion         of the services          under    each of these       subparts
       should     be handled       separately.          Other places        in the report,
       such as on page 25, will                also   need to be changed.

3.	    The discussion         of OBRA 93 on page            4 also      needs    to be changed
       to reflect     our     comment above.     In         addition       there   are several
       other   problems       with the section--

       0      The oriqinal     bill,    which was the               Administration’s      bill,
              include~     not only the new family                  preservation and
              support program but a variety of                      improvements     to the
              current   child   welfare     and foster              care programs.      These
              were dropped     due to the Byrd rule.

       o	     The other  provisions              passed    in   OBRA 93 that       you refer
              to are confusing.

              --First,   the $2 million       in FY 95 and $6 million           each
              year thereafter       for research,    evaluation,      training       and
              technical    assistance     is for the new Title        IV-B Subpart
              2 capped   entitlement      for family    preservation       and
              support.     It i.s not for broad child         welfare     senices
              evaluation     and training     and technical       assistance. ASPE
              and ACF have developed an evaluation strategy for this
              new program and work has begun to award contracts for
              this work. The bulk of the funding set-aside in the
              capped entitlement will be for evaluation.

               --Second, the changes in the state plan requirements
               for the child welfare  services program was dropped                             from
               the law due to the Byrd rule.

4.	    On page      7, we sugguest        that      you review    the statement    that
       children      no longer   get      lost      in the foster    care   system   to


                                                   C-5
       States    are improving        their    ability    to   track    children     in
       foster    care.

5.	    The reference on page 22 and 27 to the researc~j, training,
       and technical assistance should be dropped sin~e this     set-
       aside is for the family preservation and suppo:t program.

6.	    The discussion          on page 23 about corrective              action    plans
       could     be strengthen        by mentioning      that    the Administration’s
       bill    included       a provision      on conformity       review:.      While    this
       provision       got dropped       because   of the Bryd rule            it does
       demonstrate        that    the Department      recognizes        tha= changes      to
       this    process      are needed.

7.     You may want to mention          under Title    IV-B Planr!ina     EmDhasis
       on page 24, and again        on page 25 under One        st~~e    Plan,    that
       ACF discusses      the possibility       of a joint  planning      process      in
       the Program     Instructions       for the Family   PreserTJation       and
       Support   program.

8.     Also , on page 24 under the Substantive               Title    ~~-E Reviews
       you may want to mention        the grants       to States      co assess       and
       improve   handling  of proceedings        relating        to fester     care and
       adoption.     These are funded     out of the new Title               IV-B
       Subpart   2 capped  entitlement     program        for family       preservation
       and support.

9.	    On page 18, you indicate         that    congress     is conci.dering
       requesting    a study    on reasonable       efforts.     We suggest        that
       YOU clarify    this   to indicate      that    the Congress      included      in
       the Conference      Report   accompanying        OBRA 93 thz.t the
       Department    should    conduct    a study     on reasonable       efforts.

10.	   We suggest that you drop the reference    to OMB on pag@ z%
       program regulations. It refers    to an internal  review
       process in which we should  not single  out OMB.




                                                  C-6

                      OIG RESPONSE TO ASPE COMMENTS

We are pleased that ASPE found our report informative and useful and that the
Department is considering changes to the programs.

The ASPE had a number of technical comments, most of which related to our
discussion of the Omnibus Budget Reconciliation Act of 1993 provisions related to
Family Preservation and Famiiy Support. We have made a number of improvements
to the report in response to those comments. In particular, we removed our reference
to the need to publish final regulations on the Adoption and Foster Care Reporting
System, clarified our discussion of Title IV-B changes in several places in the report,
eliminated references to the newly available technical assistance funds, included
references to ACF’S proposal to consolidate planning activities, and deleted our
reference to OMB review of regulations.

We did not, however, make changes in the report to reflect the provisions of the
Family Presemation and Family Support Act that were not adopted because of the
“Byrd rule.” Instead, we make a general reference to the more recent Senate bill that
proposes these same provisions.




                                         c-7
                            APPENDIX                   D


                                  METHODOLOGY

DOCUMENT RHZEWS

We reviewed relevant literature and reports. We also analyzed current and proposed
legislation, regulations, and policy statements.

ANALYSIS OF ACF REWEW REPOR73’:

We first requested copies of all review reports sent to States since January 1988. We
then reviewed 69 reports from ACF-conducted reviews to profile content, reporting
procedures, timing of reviews and reports, and resources used in the reviews.39
When we were given multiple years of one type of report for a given State, we
reviewed only the most recent report. We only reviewed reports that were actually
sent to States (some reports we received had not yet been sent either as draft or final
reports to the State).

INTERVIEWS:

State Officials

We conducted two day, on-site interviews with various child welfare officials in three
States (Maine, Ohio, and Washington). These States were selected from the group of
States in which ACF had conducted a Title IV-E review, a program review, and a
Section 427 review in the past 5 years. The selection was based on getting diversity in
terms of geography and size; we also wanted to visit at least one State in which child
welfare services were county-based and at least one State in which the services were
State-run,

We conducted telephone intemiews with senior child welfare officials in ten States-­
one per HHS region (Connecticut, New Jersey, the District of Columbia, Florida,
Wisconsin, Oklahoma, Missouri, Montana, Nevada, and Oregon). These States were
selected using a weighted random selection method. Each State that was not a site-
visit State was assigned a weight (W) equivalent to the number of different types of
reviews (i.e., Title IV-E, Section 427, and program reviews) in the past 5 years plus
half of the number of reviews beyond one for each type of review. Each State’s odds
of selection were equal to W divided by the sum of W for all States in the region.




                                         D-1

ACF Officials

We conducted telephone interviews with senior officials in each ACF regional office.
We also had discussions and other detailed communication with officials in ACYF,
Children’s Bureau.

Other Exuerts

We held discussions with other Departmental staff, Congressional staff, GAO staff,
interest group representatives, and academic experts.




                                        D-2

              APPENDIX            E

DETAILED   EVALUATION   OF IJfPLEMENTATION   OPTIONS




                         E-1
                                                           DETAILED EVALUATION OF IMPLEMENTATION                 OPTIONS

)ption                Likefy Budget           May Need             May Need              Likely State             jike[y Possible    Major Pros?            ~ Major Cons?
                      [mpact?                 Legislation?         Regulation?           Reaction?                I’iming?
-------------         . -------------,        ---------------      ----- -----   -----   --------------           --------------     ---------------          --------------
‘performance          Use new technical       No                   No                    Relatively positive      Pilot soon         Raises questions         Complicated to
ndicators             assistance money                                                                                               Focuses on results       kvelop
                                                                                                                                     May evolve into          Could be ignored
                                                                                                                                     rcwimvs                  by Stfilcs
                                                                                                 .—                                  —          .—-.—---
Mtcome+tased          Redirect money          Yes                  Ycs                   Rclalivcly negative      [-ong term         Results bccomc           Ilighly
kviews                from other reviews                                                                                             entire focus             comrovcrsial
                                                                                                                                     Allows States to         Long dcxwlopmcnt
                                                                                                                                     argue forcefully         period
                                                                                                                                     with their
                                                                                                                                     legislatures
                                                                                                                                ——
~orrect ive Act ion   Minimal                 Yes                   Yes                  Strongly positive        Soon               Build partnership        Lessening of
‘lans                                                                                                                                improvements             sanctions
                                                                                                                                     more likely              More difficult to
                                                                                                                                     No further               do than straighl
                                                                                                                                     weakening of weak        reviews
                                                                                                                                     States
                                          —
kcreditation          More                     Yes                  Yes                   Relatively negative     Long term          Relies on outside        Iack of direct
                      administrative                                                                                                 experlise                Federal control
                      funds necessary                                                                                                Focuses on               Controvemy about
                                                                                                                                     proactive action         standards

2uality Assurance      More                    No                   Yes                   Relatively negative     Soon                Gives States             Difficulty
                       administrative                                                                                                 control                  designing
                       funds necessary                                                                                                States would be          Could be very
                                                                                                                                      tough on                 expensive
                                                                                                                                      themselves

lltle                  Redirect money          No                      No                  Relatively positive     Immediate          Focuses on               Need ACF
fV-B Planning          from other reviews                                                                                             proactive action         training
Emphasis                                                                                                                                                       More expensive
                                                                                                                                                               than current

Substantive Title      More review              Yes                    Yes                 Relatively positive     Soon                Focuses on              More complex
IV-E Reviews           funding, may                                                                                                    substantive issues      reviews
                       reduce
                       disallowances                                                                                                                                           _—— —




                                                                E-2

1,
                                                                                                                                                —                     —
II                                                      DETAILED EVALUATION OF IMPLEMENTATION           OPTIONS



II   Option              ~ikely Budget
                         Impact?
                                              May Need
                                              Legislation?
                                                                   May Need
                                                                   Regulation?
                                                                                 Likely State
                                                                                 Reaction?
                                                                                                         -ikely Possible
                                                                                                         fiming?
                                                                                                                             Major Pros?            Major Cons?


     Section 427         More review          Yes                  Yes           Relatively positive     bon                 Focuses on results     Requires new
     Incentives          [unding                                                                                             Makes 427 a real       training for ACF
                                                                                                                             incentive program      Difficult to make a
                                                                                                                                                    true incentive
                                          I                    ,

     Focus Program                                                               Strongly positive                           More potential 10      Not as
     Reviews                                                                                                                 add value              comprehensive
                                                                                                                             Should be more
                                                                                                                             timely
                                                                                                                                                                       —


 F                       -esa time
                         evicwing plans
                                              Yes                      Yes       Strongly positive       ;oon                Minimize
                                                                                                                             duplication of
                                                                                                                                                    Each plan more
                                                                                                                                                    complex




 r
                                                                                                                             efforts

     Title IV-E -        Xvelopment               No                   Yes       Strongly negative       .ong term           Simplify reviews        iqsenrse
     Automation          Funding                                                                                             Use stale-of-art        -0ss of access 10




                                                                                                                             s
                                                                                                                             technology              .ecords
                                                                                 ——                                                                                 ..—.
                                                                                 Relatively positive     [mmediate           More State              Lack of direct
                                                                                                                             autonomy                Federal control
                                                                                                                                                     _—              ...-
     Thle IV-E Limited   Less funding             Yes                  Yes       S1rongty positive       Soon                Reduce                  No formal check




     k
     scope                                                                                                                   expenditures            on some
                                                                                                                             More appropriate        requirements
                                                                                                                             review                  Smaller
                                                                                                                                                     disallowances

      Section 427        Less funding             Yes                  Yes        Strongly positive      Soon                 Reduce review          May miss outliers
      Reviews                                                                                                                 expcndit ures
                                                                                                                              End/reduce use of
                                                                                                                              troublesome


      Discontinue        Less funding
                                              L-----
                                                  Yes                             Mixed                   Immediate
                                                                                                                      ———.    process

                                                                                                                              Reduce review          Reduces Federal
      Planning and                                                                                                            cxpcndit urcs          input on impot-tant
      Program Rcvimvs                                                                                                         End usc of             SIatc dccisi(ms
                                              I                                                                               Iroublcsomc
                                                                                                                              process
                                                                                                                                                     No dircci Iixfcral
                                                                                                                                                     TA process
                                          —                                                                                                                  —



     L____
      Limited             Minimal                 No                    No        Relatively positive     Immediate           Should streamline      Reports won’t
      Background
                                                                                                             report-writing         setve general
      Sections                                                     I                                                                                 information role

                                              I                    I




                                                             E-3

                                      ,   I
        \               ,




                                                  1
                                      I




                !


                            I                 T
                                                      1



                                 u
                                .->
                                .=
                                $3
                                0.
                                _A

I
                    .            u
                                .->
                    0
                                S
                                5
                    )           Lx




                                                              *
                                                              I




            I




                                !

                                                          I
                                I
    1
                                                    DETAILED EVALUATION OF IMPLEMENTATION         OPTIONS

Option                Likefy Budget       May Need          May Need        Likely State          Likely Possible   Major Pros?         Major Cons?
                      Impact?             Legislation?      Regrslation?    Reaction?             Timing?

Performance           Minimal new         No                No              Relatively positive   Immediate         Would increase      Might not improve
Reporting             funding                                                                                       awareness           timeliness

Streamline            Minimal nav         No                No              Miscd                 S(um              Mighl irnprovc      Rcgimml office
Decision-Making       funding                                                                                       timeliness          resistance
                                                                                                                    Clarify authority

Limit Scope of        Minimal new         Yes               Yes             Strongly positive     Soon              Could improve       Might allow some
Reviews               funding                                                                                       timeliness          activities to go
                                                                                                                    Could reduce        “un-reviewed” for
                                                                                                                    complexity          some time
                  I                   I                                                           —




                                                         E-5

                            APPENDIX                   F


                                        NOTES

1.    S. Rep. No. 336, 96th Cong., “Summary” 1450 (1980).

2.    Small amounts of additional Federal money are available through the following
      programs: (l)the1974     Child Abuse Prevention and Treatment Act funds
      adoption opportunities, child abuse State grants, child abuse challenge grants,
      child abuse discretionary programs, family violence programs, and emergency
      child abuse prevention services (in 1991, total funding was about $82 million);
      (2) abandoned infants assistance (in 1991, funding was about $13 million); and
      (3) temporary child care for children with disabilities and crisis nurseries grants
      (in 1991, funding was about $11 million). See J. Rovner, “Under the Child-
      Welfare Banner Lies a Patchwork of Federal Programs,” Congressional
      Quartedy, 30 March 1991,798-799.

3.	   In 1992, Title IV-E foster care maintenance, training, and administrative
      expenses made up an estimated 61 percent of Federal child welfare spending;
      Title XX made up 21 percent; Title IV-B made up 7 percent, and Title IV-E
      adoption assistance maintenance, training, and administrative expenses made up
      6 percent. Much of the Title XX funding and Title IV-B funding was likely
      spent by States on foster care maintenance payments for children not eligible
      for AFDC.

4.	   In 1992, Title IV-E administrative and training expenses made up 32 percent of
      the total Federal funding effort. From fiscal year 1985 to fiscal year 1992,
      foster care administrative expenses rose from $143 million to $981 million. As
      the Office of Inspector General pointed out in an earlier report, it is important
      to understand that States have been given the authority to claim many types of
      services as administrative expenses including pre-placement sewices (see
      Department of Health and Human Services, Office of Inspector General,
      Oppo~nihes for Cost Containment by Modifiing Federal Reimbunement to
      States for Administrative Costs Under the Foster Care Program, A-07-90-00274,
      August1990.)

5.    The Title IV-E Independent Living program is not open-ended; it is a capped
      entitlement program.   For more information on the program, see an upcoming
      OIG report entitled “Independent Living Program for Foster Care Youth:
      Strategies for Improved ACF Management and Program Reporting” (OEI-Ol-
      93-00090).

6.	   Of the $273 million of Title IV-B claims in 1992, $132 million--less than 4
      percent of all Federal funding of child welfare--was Section 427 funding.



                                         F-1

7.    On occasion, the Office of Inspector General performs audits of Title IV-E
      funds. These are identical in scope and content to the ACF-conducted reviews.

8.    The ACF conducts initial reviews after States certify that they are eligible for
      427 funding. The initial review consists solely of the Administrative Procedures
      Review. If the State passes that review, a case record review is conducted the
      following year. If the State passes this subsequent review, it receives funding
      for three years prior to another review (known as a triennial review). At this
      review, ACF conducts another case record review and receives assurances from
      the State about administrative procedures. The standards for the triennial
      review are stricter than for the subsequent review. Once a State has passed
      two consecutive triennial reviews, the triennial reviews are conducted every five
      years.

9.    Administration   for Children and Families, Section 427 Review Handbook,
      August 1988.

10.   S. Rep No. 118, 10lst Cong., “Foster Care, Adoption Assistance, and Child
      Welfare Services,” 103 (1990).

11.   Administration for Children and Families, Draft Child We~are Services Program
      Review Manual, December 1990.

12.   Adoption Assistance and Child Welfare Act of 1980, Pub. L. No. 96-272, 94
      Stat. 517 (1980).

13.   Office of Human Development Services Task Force on Foster Care and
      Adoption Assistance, “Report on Title IV-E~itle IV-B Programs,” February 6,
      1987, 3.

14.   H.R. 2264, as introduced in the 103rd Congress, included the following major
      changes to the oversight process: elimination of Section 427 reviews, creation
      of new Title IV-B State plan requirements that mimicked Section 427, and
      establishment of a new review process for Title IV-B.

15.   For example, see H. R. Rep. No. 395, 10lst Cong., “No Place to Call Home:
      Discarded Children in America,” 79-84 (1990); United States General
      Accounting Office, Foster Care: Incomplete Implementation of the Reforms and
      Unknown Effectiveness, GAOIPEMD-89-17, August 1989; S. Rep. No. 118, 10lst
      Cong., “Foster Care, Adoption Assistance, and Child Welfare Services,” Senate
      (1990); M. Allen, “Crafting a Federal Legislative Framework for Child Welfare
      Reform,” American Journal of Orthop.ychiat~, 61 (October 1991) 4: 610-623;
      and American Public Welfare Association, Report on State Public Child Welfare
      Agencies’ Experiences wirh Title IV-E and Section 427 Reviews, Draft #3, January
      25, 1993.   -




                                         F-2

16.   Family Preservation Act of 1991: Hearing Before the House Subcommittee on
      Human Resources, 102nd Cong., 42 (June 11 and 12, 1991).

17.   S. Rep., “Foster Care, Adoption Assistance, and Child Welfare Services”, 110.

18.   The ACF has convened a task force to look at all of its monitoring activities, is
      currently working on evaluating the costs and benefits of a quality control
      system, and is finalizing new guidance on IV-B joint planning. Oversight issues
      were discussed in the prior Administration as well. See, for example,
      Administration for Children and Families, Final Repoti of lhe Section 427
      Revrkion Task Force, Briefing Memorandum, April 16, 1990; Office of Human
      Development Services Task Force on Foster Care and Adoption Assistance,
      Repon on Tide IV-E/Tide IV-B Programs; and Administration for Children and
      Families, Child We~are Monitoring Task Force: Draft Concept Papers (Revked),
      internal HHS document, July 16, 1992.

19.   Department of Health and Human Services, Office of Inspector General,
      Oppommities to Improve Fos~er Care Eligibili~ Decerrninations, A- 12-93-00022,
      May 1994 (draft).

20.   For example, see H. R. Rep. No 395, 10lst Cong., No Place to Call Home:
      Discarded Children in America, 39-44 (January 12, 1990); C. W. Dugger,
      “Shortage of Trained Caseworkers imperils Young Victims of Abuse: The
      Cracked Shield, A Child Welfare System Stumbles,” New York Times, December
      28, 1992, Al, B8; “Wronging Children,” Washington Post, February 10, 1991, 1;
      C.W. Dugger, “Troubled Children Flood Ill-Prepared Care System: Shattered
      Lives, When Foster Care Fails,” New York Times, September 8, 1992, Al, B7.

21.   See H. R. Report, No Place lo Call Home, 33-36; Department of Health and
      Human Services, Office of Inspector General, Crack Babies, OEI-03-89-01540,
      June 1990, and Department of Health and Human Services, Office of Inspector
      General, Trends in Foster Care, OEI-01-90-00490, Januaxy 1992.

22.   See H. R. Rep., No Place to Call Home, 33-36; and S. Evans, “Desperate
      Parents Cast Unruly Children Into Hands of a Burdened Government, “
      Washington Post, September 30, 1991, 1.

23.   Notably, officials from both the American Public Welfare Association and the
      Child Welfare League of America mentioned this.

24.   The Institutes for Health and Human Services, Inc., Directoy of Child We@e
      Class Action Lawsuits, October 1, 1992.

25.   Many of these have resulted in States settling consent decrees out of court.
      The consent decrees often have resulted in dramatic changes in State
      procedures and laws. See The Institutes for Health and Human Services, Inc.,



                                        F-3

      Directo~ of Child We~are C[am Action Lawsuits, October 1, 1992 and National
      Center for Youth bw, Foster Care Refom:LitigatiotZ Docket, 1989.

26.   These are the objectives ACF has defined for the reviews.

27.   Most changes such as these would require revisions to existing statute.

28.   APW~    Repoti on Experiences with Title IV-E and Section 427 Reviews.

29.   Our data show that in one State, over $1 million, or almost 6 percent of the
      Federal Title IV-E foster care funding, was disallowed on a Title IV-E review
      solely for reasons that appear to be outside of the control of the child welfare
      agen~, in another State, over 10 percent (more than $500,000) was disallowed.
      These reasons (as stated in the review reports) were: “court order did not
      indicate reasonable efforts, “ “court order did not indicate contrary to the
      welfare of the child,” and “no judicial determination done within 180 days.”

30.   OIG, Opportunities to lrnprove Foster Care Eligibility Determinations, May 1994
      (draft).

31.   Of the small number of reviews from which we were able to gather this
      information, this review involved the most people. We suspect that in other
      States, reviews involved large numbers approaching those in this example.

32.   Four of the 10 regions and 4 of the 13 States responded “No” or “Don’t know”
      to the question about whether Title IV-E reviews are meeting this objective.

33.   S. Bill No. 1886, 103rd Cong., Social Security Act Amendments of 1993,
      introduced on November 17, 1993 by Senator Daniel Patrick Moynihan.

34.   This method was used quite successfully by the Public Health Sefice. The
      PHS, in response to a recommendation we made, funded the Federation of
      State Medical Boards to develop performance indicators for State medical
      boards. The system the Federation developed has gained wide acceptance and
      is serving very useful informational purposes for the States (and for PHS).

35.   The original legislation upon which the OBRA 93 family preservation and
      family support provisions were based included a provision to put in place
      corrective action plans.

36.   The new Title IV-B Subpart 2 includes funding for grants to State judiciaries to
      assess and improve handling of proceedings related to foster care and adoption
      assistance.

37.   OIG, Oppotiunities to Improve Foster Care Eli@bili~ Determinations, May 1994
      (draft>.
      \      /




                                        F-4

38.	   The initial legislation that resulted in the OBRA 93 child welfare provisions (as
       well as the conference report on OBRA 93) included a requirement that the
       Department conduct a study on reasonable efforts.

39.	   In addition, we reviewed the content of audits conducted by OIG Office of
       Audit Setices in five States. The Office of Audit Setices conducts audits of
       State programs that are very similar to the Title IV-E reviews conducted by
       ACF. The OIG reports were not included in our analysis of the timeliness of
       reporting or the resources used in reporting. They did, however, contribute to
       our analysis of and understanding of the content of review reports.




                                         F-5



                                                       —.     -.           —.—     .. —..
                                                                                       —
